No. 19-1099

 

IN THE

Supreme Court of the Anited States

CITY OF BAKERSFIELD, AARON STRINGER,
Petitioners,

Vv.

LESLIE LARAY CRAWFORD,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,913 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2020.

 

Wilson-Epes Printing Co., Inc.
